         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report
The Department's Implementation of
Financial Incentive Programs under
the Energy Efficiency and
Conservation Block Grant Program




OAS-RA-L-13-02                    December 2012
                                 Department of Energy
                                     Washington, DC 20585

                                        December 3, 2012

MEMORANDUM FOR THE PROGRAM MANAGER, WEATHERIZATION AND
               INTERGOVERNMENTAL PROGRAM




FROM:                    George W. Collard
                         Assistant Inspector General
                           for Audits
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The Department's Implementation
                         of Financial Incentive Programs under the Energy Efficiency and
                         Conservation Block Grant Program"

BACKGROUND

The Department of Energy's (Department) Energy Efficiency and Conservation Block Grant
(EECBG) Program, funded for the first time by the American Recovery and Reinvestment Act of
2009, was intended to help US cities, counties and states develop, promote, implement and
manage energy efficiency and conservation projects. The EECBG Program received $3.2 billion
in Recovery Act funding for competitive and formula grants. Of the $3.2 billion, approximately
$284 million was designated by EECBG recipients for financial incentive programs.

Financial incentive programs include both lending and credit enhancement initiatives. Lending
programs provide financing to borrowers, commonly through revolving loan funds. Credit
enhancement programs use loan loss reserves, interest rate buy-downs or loan loss insurance to
reduce a lender's risk. Both types of programs can be administered by the recipient or by a third-
party contractor, e.g., a bank, credit union or community development financial institution.

Since the inception of the Recovery Act, the Office of Inspector General has conducted a series
of reviews on the EECBG Program which have identified various weaknesses. In particular, as
noted in our report The Status of Energy Efficiency and Conservation Block Grant Recipient's
Obligations, (OAS-RA-11-16, September 2011), $879 million of the $2.7 billion in formula-
based grant funding provided by the Department, or nearly one-third, remained unobligated by
recipients at the time of our review. The Department has since focused aggressively on
encouraging recipient spending and recipient obligations through phone calls and in-person
outreach efforts. In light of the identified weaknesses and the risks inherent in establishing a
large new program of national significance, we initiated this audit to determine whether the
Department had managed its EECBG financial incentive programs efficiently and effectively.

CONCLUSIONS AND OBSERVATIONS

The Department had taken a number of positive steps to implement and administer EECBG
financial incentive programs to ensure accountability for Recovery Act funding and compliance
with laws and regulations. For example, with the launch of the Recovery Act, the Department
introduced the Solution Center, an online portal for technical assistance resources that included
best practices, templates, online trainings and webcasts. However, our review found two major
challenges in ensuring the effectiveness of the EECBG financial incentive programs. These
challenges included:

    •   Ensuring grant recipients were on track to meet expenditure goals for their financial
        incentive programs prior to the end of their grant periods; and,

    •   Finalizing grant recipient guidance on their responsibilities for long-term monitoring and
        reporting of financial incentive programs funding.

We found that the Department understood these challenges and had taken action to address them.
Additionally, we noted that the Department had identified and was taking action to address a
problem with one recipient that had not complied with Federal requirements to segregate
Recovery Act funds from other funding sources in its accounting system.

                            Status of Selected Recipient Expenditures

We found that two of the five recipients we reviewed had experienced difficulties in meeting
expenditure goals for financial incentive programs. Specifically:

   •    As of August 2012, one recipient reported expending only about $660,000 of the total
        $6.3 million (10.5 percent) in funding allocated to its financial incentive program despite
        being more than two-thirds through its 36-month award period. The program included
        credit enhancements paid to third-party lenders for loans made to finance borrowers'
        retrofits of existing buildings or homes to increase their overall energy efficiency. The
        recipient reported that over the last several months, in an effort to increase expenditures,
        it put in place collaboration agreements with local utility companies to expand existing
        loan and rebate programs. The recipient expects that all EECBG funds will be spent by
        the end of the grant period, or May 31, 2013; and,

   •    Another recipient had only expended about $178,000 of the total $351,860 (49.7 percent)
        allocated to its revolving loan fund as of August 2012, with less than 2 months left under
        the award. The recipient stated that its proposal to repurpose unused funds to another
        activity was approved by the Department in September 2012.

Even though the Department had provided program guidance to recipients throughout the grant
period, recipients indicated that they had experienced difficulties in expending funds for various
reasons. For example, one official noted that even at low interest rates, potential borrowers were
reluctant to take on additional debt because of economic conditions. While we acknowledge that
valid reasons may have existed, the slow pace and pressure of spending funds within the period
of performance may potentially affect the Department's ability to meet the goals of the Recovery
Act.

To address the challenges in meeting expenditure goals, during the course of our review and in
response to a previous Office of Inspector General recommendation, the Department conducted

                                                 2
an initial assessment of recipients' financial incentive programs 1, including data collection and
analyses of dollars spent to date and factors impacting lending environments. The results of the
assessment were being used to evaluate the relative success of the programs within the award
period. Additionally, the Department used the data to determine whether funds needed to be
reprogrammed or if no-cost time extensions needed to be put in place prior to the end of the
award period. Through October 2012, the Department had granted 324 no-cost extensions
ranging from 6 to 14 months, of which 63 included financial incentive programs. Continued
Department oversight is needed to meet Recovery Act goals.

                                  Long-Term Monitoring and Reporting

We noted the Department had not initially developed a plan to address long-term monitoring and
reporting of financial incentive programs. These types of program funds have the potential to
remain under the control of the recipient well beyond the expiration of the Recovery Act award.
For example, revolving loan funds are structured so that repayments can be used to make more
loans. Additionally, loan loss reserve funds are placed in escrow until expended as result of
borrower defaults.

According to Department guidance, Federal funds, as described above, generally retain their
Federal character in perpetuity. As a result, Federal requirements apply for the life of a
revolving loan fund, as funds are paid back by existing borrowers and then lent out to new
borrowers. Additionally, Federal requirements apply to residual funds from loan loss reserves
that are returned by lenders because they are not needed to offset loan defaults. Accordingly,
monitoring and reporting requirements will remain in force until funds are completely exhausted
(through loan defaults and interest rate buy-downs) or returned to the Federal government.

During the course of our audit, the Department began working with the Office of General
Counsel and the Office of Management and Budget to develop guidance on periodic long-term
monitoring and financial incentive program reporting. Examples of reporting information under
consideration included the number and dollar amount of loans issued, paid back, and defaulted.
In mid-October 2012, the Department issued final guidance to recipients on periodic long-term
monitoring and financial incentive program reporting. While we agree that this represents a
positive step, the Department will need to provide oversight of recipient compliance with the
long-term monitoring and reporting responsibilities.

                                    Accountability For EECBG Funds

One of the five recipients we reviewed had not properly segregated EECBG funds, as required
by the Recovery Act. Specifically, the recipient had deposited over $350,000, the total amount
allocated to its revolving loan fund, into a pre-existing bank account already used to fund loans
to low income homeowners. Additionally, it had not set up a separate account for the EECBG
funds within its accounting system. While the recipient maintained a record of EECBG loans
outside of its accounting system, it could not provide any reconciliations of revolving loans
funded by the Recovery Act grant to the amount of such funds remaining in the bank account.
1
 In our report The Status of Energy Efficiency and Conservation Block Grant Recipient's Obligations, (OAS-RA-11-
16, September 2011), we recommended the Department complete an analysis to identify those recipients who were
unlikely to expend funds within the grant period and consider alternatives for managing EECBG Recovery Act
funds.
                                                       3
Under the terms and conditions of its award, the recipient was prohibited from commingling
EECBG funds with any other funds and was required to revise its financial and accounting
systems to segregate, track, and maintain these funds apart and separate from other revenue
streams.

In September 2011, the Department conducted a site visit and found that a separate EECBG fund
had not been set up within the recipient's accounting system. Even though the recipient
subsequently indicated it had established a new accounting system which would allow for
(future) segregation of EECBG funds, officials stated that they did not have the manpower, nor
were they going to conduct a formal reconciliation of the previously comingled funds. By not
reconciling these (previously comingled) funds, we remain concerned that the goals of the
Recovery Act may not have been met, and funds may not have been spent on approved EECBG
projects.

                                          Path Forward

Given the significance of the Recovery Act, we believe the Department should continue
monitoring project performance to ensure that funds are expended to meet Recovery Act goals
and requirements.

SUGGESTED ACTIONS

To address the issues identified in this report and improve management of EECBG financial
incentive programs, we suggest that the Program Manager for the Weatherization and
Intergovernmental Program:

     1. Continue to collect and analyze recipient data in an effort to ensure financial incentive
        programs are successful and unused funds are returned or reprogrammed to other
        programs;

     2. Continue to provide oversight of grant recipients to ensure compliance with long-term
        monitoring and reporting responsibilities; and,

     3. Ensure recipient accounting systems properly account for EECBG funds and corrective
        actions are addressed in a timely manner.

We appreciate the cooperation of the Department and its on-going efforts. Because no
recommendations are being made in this report, a formal response is not required.

Attachments

cc: Deputy Secretary
    Associate Deputy Secretary
    Acting Under Secretary of Energy
    Assistant Secretary for Energy Efficiency and Renewable Energy
    Acting Deputy Chief Financial Officer
    Chief of Staff

                                                4
                                                                                    Attachment 1

                      OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of this audit was to determine whether the Department of Energy (Department)
had managed its Energy Efficiency and Conservation Block Grant (EECBG) Program financial
incentive programs efficiently and effectively.

SCOPE

The audit was performed between September 2011 and November 2012, at Department
Headquarters in Washington, DC. In addition, we visited five recipients that were awarded six
grants including: (1) City of Portland, Oregon; (2) City of Providence, Rhode Island; (3)
Clackamas County, Oregon; (4) State of South Dakota Department of Tourism and State
Development in Pierre, South Dakota; and, (5) Executive Office of the State of New Hampshire
in Concord, New Hampshire.

METHODOLOGY

To accomplish the audit objective we:

     •   Obtained and reviewed relevant laws and regulations related to the implementation of
         the American Recovery and Reinvestment Act of 2009 (Recovery Act), EECBG
         Program, and financial incentive programs;

     •   Reviewed individual grant award files from the Department's Strategic Integrated
         Procurement Enterprise System;

     •   Obtained and reviewed selected recipient's policies and procedures related to the
         administration of financial incentive programs;

     •   Interviewed Department and selected recipient officials to determine actions taken to
         implement and administer EECBG financial incentive programs;

     •   Interviewed officials from third-party administrators contracted to manage selected
         recipient's financial incentive programs; and,

     •   Obtained and analyzed documentation from selected recipient and third-party
         administrators to determine the eligibility of funded projects and the progress made in
         implementing financial incentive programs.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. Accordingly, we assessed significant


                                                5
                                                                      Attachment 1 (continued)

internal controls and compliance with laws and regulations necessary to satisfy the audit
objective. In particular, we assessed the Department's implementation of the GPRA
Modernization Act of 2010 and found the Department had established performance measures
related to the EECBG Program. Because our review was limited, it would not necessarily have
disclosed all internal control deficiencies that may have existed at the time of our audit. We
conducted an assessment of computer-processed data relevant to our audit objective and found it
to be reliable.

Management waived an exit conference.




                                               6
                                                                                 Attachment 2


                                PRIOR AUDIT REPORTS

Under the American Recovery and Reinvestment Act of 2009, the Office of Inspector General
has initiated a series of audits designed to evaluate the Department's Energy Programs. Our
series of audit reports include the following:

    • Audit Report on The Department of Energy's Energy Efficiency and Conservation Block
      Grant Program Funded under the American Recovery and Reinvestment Act for the City
      of Philadelphia (OAS-RA-12-09, April 2012).

    • Audit Report on The State of Nevada's Implementation of the Energy Efficiency and
      Conservation Block Grant Program (OAS-RA-12-02, November 2011).

    • Management Alert on The Status of Energy Efficiency and Conservation Block Grant
      Recipients' Obligations (OAS-RA-11-16, September 2011).

    • Audit Report on The Department of Energy's Energy Efficiency and Conservation Block
      Grant Program Funded under the American Recovery and Reinvestment Act for the State
      of Pennsylvania (OAS-RA-L-11-11, September 2011).

    • Audit Report on The Department of Energy's American Recovery and Reinvestment Act –
      California State Energy Program (OAS-RA-11-10, July 2011).

    • Audit Report on The Department of Energy's Energy Implementation of the Energy
      Efficiency and Conservation Block Grant Program under the Recovery and Reinvestment
      Act: A Status Report (OAS-RA-10-16, August 2010).




                                              7
                                                                IG Report No. OAS-RA-L-13-02

                           CUSTOMER RESPONSE FORM
The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2.   What additional information related to findings and recommendations could have been
          included in the report to assist management in implementing corrective actions?

     3.   What format, stylistic, or organizational changes might have made this report's overall
          message more clear to the reader?

     4.   What additional actions could the Office of Inspector General have taken on the issues
          discussed in this report that would have been helpful?

     5.   Please include your name and telephone number so that we may contact you should
          we have any questions about your comments.


Name                                         Date

Telephone                                    Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                  U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

      Your comments would be appreciated and can be provided on the Customer Response Form.
